Report No. DODIG-2013-027          November 30, 2012




   DoD Generally Effective at Correcting Causes
    of Antideficiency Act Violations in Military
     Personnel Accounts, But Vulnerabilities
                     Remain
Additional Information
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ADA                           Antideficiency Act
BA                            Budget Activity
BUPERS                        Bureau of Navy Personnel
CMA                           Centrally Managed Allotment
DoD FMR                       DoD Financial Management Regulation
MILPERS                       Military Personnel
OMB                           Office of Management and Budget
PCS                           Permanent Change of Station
USD(C)/CFO                    Under Secretary of Defense
                               (Comptroller)/Chief Financial Officer, DoD
                                   INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                    4800 MARK CENTER DRIVE
                                 ALEXANDRIA, VIRGINIA 22350-1500

                                                                        November 30, 2012

 MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                   CHIEF FINANCIAL OFFICER, DOD
                ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
                NAVAL INSPECTOR GENERAL
                AUDITOR GENERAL, DEPARTMENT OF THE ARMY

 SUBJECT: DoD Generally Effective at Correcting Causes of Antideficiency Act
          Violations in Military Personnel Accounts, But Vulnerabilities Remain
          (Report No. DODIG-2013-027)

We are providing this report for review and comment. This audit was required by
Section 8109 of the Consolidated Appropriations Act, 2012. The Military Departments
were generally effective implementing and sustaining corrective actions taken in response
to nine Antideficiency Act violations, involving the Military Personnel accounts, totaling
$541.9 million, reported since October 1, 2002. However, controls over tracking the
conective actions could be improved. In addition, Atmy and Navy Comptroller
personnel did not annually assess the adequacy of control procedures for centrally
managed allotments to prevent Antideficiency Act violations and justify their use.

DoD Directive 7650.3 requires that recommendations be resolved promptly~ Comments
from the Deprutment of the Navy were responsive, and we do not require additional
comments. We received comments from the Under Secretary of Defense
(Comptroller)/ChiefFinancial Officer, DoD; Depattment ofthe Atmy; and Department
of the Air Force that were generally responsive. However, the comments fi:om the Under
Secretary of Defense (Comptroller)/ChiefFinancial Officer, DoD, on Recommendation
B.1 .b and the comments from the Deprutments of the Army and Air Force on
Recommendation A.2 were only partially responsive. We.request additional comments
on these recommendations by December 31, 2012 . .

Please provide comments that conform to the requirements of DoD Directive 7650.3 .. If
possible, send a pmtable document format (.pdf) file containing your comments to
audfmr@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the /Signed/ symbol
in place of the actual signature. If you atTange to send classified comments
electronically, you must send them over the SECRET Intemet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8938.



                                             ~           (?.   v""
                                             Richard B. Vasquez, CPA
                                             Acting Assistant Inspector General
                                             Financial Management and Repotiing
Report No. DODIG-2013-027 (Project No. D2012-D000FI-0118.000)                   November 30, 2012

              Results in Brief: DoD Generally Effective at
              Correcting Causes of Antideficiency Act
              Violations in Military Personnel Accounts,
              But Vulnerabilities Remain
                                                       allotments (CMAs). This occurred because
What We Did                                            Army personnel did not recognize this
We determined whether DoD developed and                requirement before FY 2012, and Navy
implemented effective controls to prevent future       personnel did not understand that the MILPERS
Antideficiency Act (ADA) violations in the             accounts were covered by this requirement. As
Military Personnel (MILPERS) accounts. This            a result, the Army and Navy had limited
audit was required by Section 8109 of the              assurance that controls will prevent future
Consolidated Appropriations Act, 2012.                 MILPERS ADA violations and they have not
                                                       justified the continued operation of MILPERS
                                                       accounts as CMAs.
What We Found
The Military Departments were generally                What We Recommend
effective in implementing and sustaining
corrective actions for the nine MILPERS ADA            The USD(C)/CFO should require the Military
violations, totaling $541.9 million, reported          Departments to report the status of all
since October 1, 2002. Specifically, the Under         unimplemented corrective actions and update
Secretary of Defense (Comptroller)/Chief               the DoD Financial Management Regulation to
Financial Officer, DoD (USD[C]/CFO) and the            clarify the definition of a CMA and require the
Military Department’s Assistant Secretaries for        Military Departments to provide written
Financial Management and Comptroller                   assurance of their annual review of CMAs to the
(Comptroller) personnel provided adequate              USD(C)/CFO.
support to substantiate that 36 of 44 corrective
actions were implemented and sustained.                We recommend that the Assistant Secretaries of
However, in four of the nine violations, Army          the Army, Navy, and Air Force (Financial
and Navy Comptroller personnel could not               Management and Comptroller) establish
demonstrate that they had completed and                procedures to document corrective actions
sustained eight corrective actions, including          taken. The Navy should also identify all its
three actions still in process. This occurred          CMAs and begin performing and documenting
because DoD had not established sufficient             annual reviews.
controls to ensure that required corrective
actions in MILPERS ADA violation reports               Management Comments and
were properly implemented, sustained, and              Our Response
documented. As a result, DoD remained                  Comments from the Navy were responsive.
vulnerable to future MILPERS ADA violations.           Comments from the USD(C)/CFO, Army, and
                                                       Air Force were partially responsive. We request
Army and Navy Comptroller personnel did not            additional comments. Please see the
assess the adequacy of control procedures              recommendations table on the back of this page.
established for managing centrally managed
                                                   i
Report No. DODIG-2013-027 (Project No. D2012-D000FI-0118.000)   November 30, 2012

Recommendations Table

          Management                  Recommendations      No Additional Comments
                                     Requiring Comment              Required
Under Secretary of Defense        B.1.b                    A.1, B.1.a
(Comptroller)/Chief Financial
Officer

Assistant Secretary of the Army   A.2
(Financial Management and
Comptroller)

Assistant Secretary of the Navy                            A.2, B.2
(Financial Management and
Comptroller)

Assistant Secretary of the Air    A.2
Force (Financial Management
and Comptroller)


Please provide comments by December 31, 2012.




                                          ii
Table of Contents

Introduction                                                                    1

      Objective                                                                 1
      Background                                                                1
      Review of Internal Controls                                               5

Finding A. DoD Was Generally Effective In Implementing and
Sustaining ADA Violation Corrective Actions                                     6

      General Categories for Numerous Causes of Violations                     6
      Military Departments Implemented and Sustained Most Corrective Actions   7
      Reducing Vulnerability to Future ADA Violations Requires Follow-up
        and Documentation of Corrective Actions                                10
      Completing Remaining Corrective Actions Should Take Priority
        Over Seeking Congressional Action                                      11
      Management Comments on the Finding and Our Response                      11
      Recommendations, Management Comments, and Our Response                   13

Finding B. Army and Navy Did Not Complete Annual Reviews
of the Military Personnel Accounts                                             15

      Required Reviews of Centrally Managed Allotments                         15
      Army and Navy Did Not Comply with the Annual CMA Review Requirement      16
      DoD Financial Management Regulation Did Not Require Reporting to
        USD(C)/CFO                                                             17
      Management Comments on the Finding and Our Response                      18
      Recommendations, Management Comments, and Our Response                   18

Appendices

      A. Scope and Methodology                                                 20
      B. Prior Coverage                                                        21
      C. Antideficiency Act Summaries                                          23

Management Comments

      Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD    34
      Department of the Army                                                   36
      Department of the Navy                                                   38
      Department of the Air Force                                              40
Introduction
Objective
The audit objective was to determine whether DoD developed and implemented effective
controls to prevent future Antideficiency Act (ADA) violations in the Military Personnel
(MILPERS) accounts. Specifically, we determined whether DoD implemented the
corrective actions in prior reports and investigations concluded in the last 10 years that
identified ADA violations of the MILPERS accounts and whether DoD maintained its
process improvements to prevent future ADA violations. This audit was required by the
Consolidated Appropriations Act, 2012 (the Act). See Appendix A for a discussion of
the scope and methodology and Appendix B for prior coverage related to the objectives.

Background
The office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
(USD[C]/CFO) submitted proposals for FYs 2012 and 2013 to the House and Senate
Appropriations Committees that requested the authority to extend 2 percent of each
MILPERS appropriation for obligation for an additional year. USD(C)/CFO personnel
stated in their proposal that this would reduce the rate of MILPERS ADA violations by
allowing the Military Departments more flexibility for unidentified or underestimated
requirements that occurred after a MILPERS appropriation was no longer available for
new obligations.

As a result of interest in this request, Section 8109 of the Act required the following:

                  The Inspector General of the Department of Defense shall conduct a review of
                  Antideficiency Act violations and their causes in the Department of Defense Military
                  Personnel accounts. Based on the findings of the review, the Inspector General shall
                  submit to the congressional defense committees a report containing the results of the
                  review and recommendations for corrective actions to be implemented.

Appropriations and Budget Authority
An appropriation is a provision of legal authority that permits Federal agencies to incur
obligations 1 and to make payments out of the U.S. Treasury for a specified purpose. An
appropriation usually follows enactment of authorizing legislation by Congress and is the
most common means of providing budget authority. Appropriations also represent
limitations of amounts and the purpose for which agencies may obligate during the time
period specified in the respective appropriation acts.

Following the authorizing legislation, the Office of Management and Budget (OMB) then
apportions the funds to agencies. This means that OMB makes distributions of amounts
available for obligation in an appropriation into amounts available for specified time


1
 An obligation is a binding agreement that will result in outlays, immediately or in the future. Budgetary
resources must be available before obligations can be incurred legally.


                                                     1
periods, programs, activities, or projects. An apportionment may be further subdivided
by an agency into allotments, suballotments, allowances, and allocations. Allotments are
subdivisions of apportionments that are made by the heads of agencies. Suballotments
are subdivisions of allotments while allowances and allocations are subdivisions of
suballotments.

When Congress appropriates budget authority, it sets the period of availability for new
obligations of the budget authority and the period normally is specified in the law
providing the budget authority.

   •   Annual budget authority refers to budget authority that is available for obligation
       for one fiscal year or less.
   •   Multi-year budget authority is available for obligation for a specified period of
       time in excess of one fiscal year.
   •   No-year budget authority is an appropriation which is available for obligation
       until all funds have been expended.

Centrally Managed Allotments
Centrally managed allotments (CMAs) are established to finance activities when
centralized funding controls are more practical for the appropriation. Under centralized
fund control, fund allowances, allotments, commitment records, and fiduciary
responsibility for the funds are maintained and controlled by a single funds holder, such
as the Director of Resource Management /Comptroller. In the event of an ADA
violation, the Director of Resource Management /Comptroller would be held accountable
for the ADA violation.

By contrast, under decentralized fund control, funds are distributed to other organizations
and these organizations then have fiduciary responsibility for the funds received. In the
event of an ADA violation, the funds holder of the allocation, suballocation, or other
subdivision of funds may be held accountable.

DoD Financial Management Regulation (DoD FMR) volume 14, chapter 1,
“Administrative Control of Funds,” January 2009, requires that the head of each DoD
Component review its CMAs annually to determine whether its operation should be
continued. The annual review must include an evaluation of the adequacy of control
procedures established to prevent ADA violations.

Military Personnel Accounts
MILPERS accounts are annual appropriations that fund military member pay and
allowances, recruiting and retention incentives, subsistence-in-kind (food rations),
permanent change of station (PCS) costs, death gratuities, unemployment compensation
benefits, Reserve Officer Training Corps, and Cadet stipends. Most of the MILPERS
accounts are centrally managed.

MILPERS accounts consist of 10 separate annual appropriations. The Army and the Air
Force each have three appropriations (Active, Reserve, and National Guard) while the


                                             2
Navy and Marine Corps each have two appropriations (Active and Reserve).
Appropriations are broken down into categories, called Budget Activities (BAs), which
identify the purposes, projects, or types of activities financed by the appropriation. There
are six BAs within the Active MILPERS accounts.

    •   BA 1 - Pay and Allowances of Officers
    •   BA 2 - Pay and Allowances of Enlisted
    •   BA 3 - Pay and Allowance of Cadets
    •   BA 4 - Subsistence of Enlisted Personnel
    •   BA 5 - PCS
    •   BA 6 - Other MILPERS Cost

The Reserve and National Guard components of the Military Services use a single BA,
Unit and Individual Training, to manage all of their funding.

There is minimal discretionary spending within the MILPERS accounts. More than
90 percent of the annual MILPERS accounts is required for pay and benefits to military
service members, and the funds must be paid according to the number of service
members. Some PCS costs, including the cost of storage of family household goods
(sometimes for lengthy periods) are difficult to estimate. This creates a unique
end-of-year budgeting and expenditure execution challenge for DoD.

Antideficiency Act
The ADA consists of provisions of law designed to enforce the Constitutional authority
of Congress over funding the government. The ADA has a number of restrictions,
including the following laws prohibiting obligations and expenditures in excess of an
appropriation or before an appropriation is made.

    •   An employee of the United States government may not authorize a payment or an
        obligation exceeding an apportionment or amount permitted by regulation of
        administrative control of funds. (Section 1517, Title 31, United States Code)

    •   An employee of the United States government may not authorize a payment or an
        obligation exceeding an amount available in an appropriation…before an
        appropriation is made. (Section 1341, Title 31, United States Code)

Potential ADA violations must be investigated, in accordance with DoD FMR,
volume 14. If an ADA violation is suspected, a preliminary review must be completed
by the agency. Further, if the preliminary review concludes that an ADA violation likely
occurred, a formal investigation must also be completed. The responsible Military
Department must report the results of the formal investigation to the USD(C)/CFO,
which then reports all the relevant facts and actions for actual ADA violations to the
President and Congress in accordance with Section 1351, Title 31, United States Code.




                                             3
Funds Control Annual Report
DoD FMR, volume 14, chapter 1, paragraph 010211, states that each DoD Component
must conduct an annual evaluation of its overall administrative funds control processes
and the processing of ADA violations.

The evaluation must include:
   • descriptions of improvements of the effectiveness of internal controls over
       appropriations and funds,
   • a status report of the number of key fund control personnel identified and trained,
   • descriptions of improvements in compliance with the ADA, and
   • the identification of lessons learned from the investigation of ADA violations and
       implementation of appropriate corrective actions to preclude the reoccurrence of
       ADA violations.

Universe of MILPERS ADA Violations
Over the past 10 years, there were nine closed ADA violation cases involving the
MILPERS accounts. Table 1 lists the nine MILPERS ADA cases, valued at
$541.9 million, reported in the last 10 years.

                            Table 1. MILPERS ADA Violations
   Military            Case          Fiscal Year(s)      Dollar Value           Case Closed
 Department           Number          of Violation
Navy                   03-01              2002             $21,800,000          August 2005
Army                   04-07          1995-1997 *              521,790           April 2007
Army                   04-12              2004                  30,000           April 2007
Army                   05-03              2001              25,000,743          August 2007
Army                   06-09              2005              59,046,000        September 2007
Air Force              09-03              2005              87,535,000        December 2010
Army                   10-02              2008             155,000,000           June 2012
Navy                   10-03              2008             183,241,112          March 2011
Air Force              10-06              2009               9,729,552         February 2012
     Total                                                $541,904,197
*Although the formal case for this MILPERS ADA violation was opened in December 2002, the events
that generated the case actually occurred in FYs 1995 through 1997.

See Appendix C for a summary of each violation. The Army also had one potential
MILPERS ADA violation under formal investigation. As of September 24, 2012, Army
Comptroller personnel were preparing the formal report for Army Case 11-07. This was
a potential ADA violation in the FY 2005 MILPERS, Army appropriation. The
estimated dollar value of the potential violation is $130,280,000.

Table 2 identifies the impact of the 2 percent proposed authority for each of the Military
Departments for the past 5 fiscal years. This authority would significantly exceed the
financial impact for each of the ADA violations as listed in Table 1. For example, the



                                                 4
Air Force violation in FY 2009 was $9.7 million; however, 2 percent of the Air Force
appropriations for FY 2009 would have been $616.6 million, which is significantly
greater than the dollar value of the ADA violation.

          Table 2. 2 Percent of Annual MILPERS Appropriation (in millions)
  Military           FY 2007           FY 2008          FY 2009          FY 2010           FY 2011
   Service*
Army                     $768.7         $1,100.7         $1,217.0          $1,278.7          $1,309.5
Navy                      414.9            521.5            551.2             572.5             584.2
Air Force                 479.3            590.8            616.6             648.0             674.1
Marine Corps              171.8            254.1            278.6             284.5             292.0
    Total              $1,834.7         $2,467.1         $2,663.4          $2,783.7          $2,859.8
*Appropriations for each Military Service are combined in this table. Totals for the Army and Air Force
include Active, Reserve, and National Guard appropriated amounts. Totals for Navy and Marine Corps
include Active and Reserve appropriated amounts.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the reporting of unimplemented corrective actions for MILPERS ADA
violations and procedures for maintaining records documenting corrective actions taken.
In addition, Army and Navy personnel did not annually assess the adequacy of control
procedures established for managing CMAs. We will provide a copy of the report to the
senior official responsible for internal controls in the Department of the Army,
Department of the Navy, and Department of the Air Force.




                                                    5
Finding A. DoD Was Generally Effective In
Implementing and Sustaining ADA Violation
Corrective Actions
The Military Departments were generally effective in implementing and sustaining the
corrective actions for nine MILPERS ADA violations, totaling $541.9 million, reported
since October 1, 2002. Specifically, USD(C)/CFO and the Military Department’s
Assistant Secretaries for Financial Management and Comptroller (Comptroller)
personnel 2 provided adequate support to substantiate that 36 of 44 corrective actions were
implemented and sustained. However, in four of the nine MILPERS ADA violation
cases, Army and Navy Comptroller personnel could not demonstrate that they had
completed and sustained eight corrective actions, which included three corrective actions
still in process. This occurred because USD(C)/CFO and Military Department
Comptroller personnel had not established sufficient controls to ensure that the required
corrective actions in the MILPERS ADA violation reports were properly implemented,
sustained, and documented. The absence of a method for tracking prior corrective
actions made it difficult for the Military Department Comptroller personnel to provide
evidence that they had taken and sustained all of the corrective actions. As a result, DoD
remained vulnerable to future MILPERS ADA violations.

General Categories for Numerous Causes of Violations
The ADA violation reports documenting the formal ADA investigations identified
numerous causes for the nine MILPERS ADA violations, but there were several common
reasons for the violations. We identified three general categories of causes. As shown in
Table 3, most ADA violations resulted from a failure to follow established procedures or
internal control weaknesses. Inadequate cost estimating was a factor in only three of the
nine MILPERS ADA violations.




2
 Within the Air Force, the Assistant Secretary for Financial Management and Comptroller has control over
the budget, cost, manpower, and financial operations functions. However, within the Army, the Assistant
Secretary for Financial Management and Comptroller only has control over the budget, cost, and financial
operations functions. The manpower function is controlled by the Army’s Deputy Chief of Staff, G-1.
Similarly, within the Navy, the Assistant Secretary for Financial Management and Comptroller only has
control over the budget, cost, and financial operations functions. The manpower function is controlled by
the Assistant Secretary of the Navy (Manpower and Reserve Affairs). Unless otherwise noted, reference to
the Assistant Secretaries for Financial Management and Comptroller personnel includes all MILPERS
functions.


                                                    6
                 Table 3. Categories of MILPERS ADA Violations
        Military       Case       Internal   Inadequate    Failure to
       Department Number          Control       Cost         Follow
                                 Weakness    Estimating   Established
                                                          Procedures
       Navy            03-01          X          X             X
       Army            04-07          X                        X
       Army            04-12                                   X
       Army            05-03                                   X
       Army            06-09                     X             X
       Air Force       09-03          X                        X
       Army            10-02          X          X
       Navy            10-03          X
       Air Force       10-06          X                        X

The MILPERS ADA violation reports also identified the corrective actions in response to
the causes for the individual violations. DoD FMR, volume 14, chapter 7,
“Antideficiency Act Report,” November 2010, requires these reports to identify the
specific actions to be completed to prevent similar violations in the future. The
corrective actions are to be detailed enough in order to evaluate the adequacy of the
corrective actions required by the ADA investigation. This includes improvement of
overall and specific policies, procedures, and processes used; newly established or
improved internal procedures; and assurances that a similar violation would not occur in
the future. Enclosures to ADA violation reports must show documentation of corrective
actions taken or to be completed.

Military Departments Implemented and Sustained Most
Corrective Actions
Military Departments implemented and
sustained most of the corrective actions                    Military Departments
identified in the nine MILPERS ADA violation          implemented and sustained most
reports issued since October 1, 2002. Based on            of the corrective actions
information in the ADA violation reports,              identified in the nine MILPERS
additional documents provided to us, and our            ADA violation reports issued
discussions with Military Department                       since October 1, 2002.
personnel, we determined whether the
corrective actions identified in the reports had been completed and whether there was
evidence indicating that the corrective actions were still in place. Table 4 identifies the
status of all corrective actions taken on the nine MILPERS ADA violations.




                                              7
          Table 4. Status of MILPERS ADA Violation Corrective Actions
 Military        Case         Total   Corrective    Evidence of     Corrective
Department Number Corrective           Actions      Corrective        Actions
                             Actions  Completed       Action          Still In
                                         and           Was            Process
                                      Sustained     Inadequate
Navy             03-01          9          9             0               0
Army             04-07          5          3             2               0
Army             04-12          1          1             0               0
Army             05-03          3          2             1               0
Army             06-09          4          4             0               0
Air Force        09-03          5          5             0               0
Army             10-02         12          8             2               2
Navy             10-03          4          3             0               1
Air Force        10-06          1          1             0               0
    Total                      44         36             5               3

Although many corrective actions had been taken by Military Department personnel in
response to the MILPERS ADA violations, evidence did not exist to substantiate that
they had taken or sustained corrective actions related to four of the nine MILPERS ADA
violations.

Corrective Actions Completed and Sustained
Military Department Comptroller personnel fully completed and sustained the corrective
actions identified in ADA violation reports for five of the nine MILPERS ADA violation
cases. For example, Air Force Case 09-03 had five corrective actions listed in the report.
Air Force Comptroller personnel provided supporting documentation showing that they
had completed and sustained all the corrective actions listed in the ADA violation report.
To illustrate, the inexperience of the staff was one of the causes contributing to the ADA
violation and they did not understand ADA implications of procedures used to obligate
PCS moves. The corrective action identified required additional training for staff who
managed the unique aspects of the MILPERS processes. Air Force Comptroller
personnel provided descriptions of the additional required training courses, as well as
evidence that this training had been implemented and was on going.




                                            8
Some Corrective Actions Evidence Was Inadequate
Army Comptroller personnel could not demonstrate that they properly implemented or
sustained 5 of 20 corrective actions identified in three ADA violation reports. For
example, the ADA violation report for Army Case
                                                            Army Comptroller personnel
05-03 indicated that the Army National Guard
                                                             could not demonstrate that
Comptroller Personnel responsible for calculating
                                                           they properly implemented or
Military Retirement Trust Fund contributions had
                                                            sustained 5 of 20 corrective
not received training on how to make the
                                                          actions identified in three ADA
calculations. Army National Guard Comptroller
                                                                 violation reports.
personnel provided us documentation that indicated
that training had been provided to individuals responsible for calculating contributions to
the Military Retirement Trust Fund in 2007. However, they could not demonstrate the
current personnel responsible for calculating contributions were trained after 2007.

Corrective Actions Still In Process
Three corrective actions related to two MILPERS ADA violations are still in process.
For example, in Navy Case 10-03, one of the corrective actions was the development and
implementation of a future system that met the requirements outlined for the Defense
Integrated Military Human Resources System. With the cancelation of the Defense
Integrated Military Human Resources System in February 2010, each Department was
required to develop its own integrated personnel and military pay enterprise system
solution. The Integrated Personnel and Pay System-Navy is intended to be the Navy’s
integrated pay and personnel system but it is not scheduled for completion until FY 2016.

In addition, Army Case 10-02 identified an internal control weakness in the management
of its Active MILPERS account. As a result, Army personnel created a Lean Six Sigma
project to help correct the internal control weakness by identifying a better way to record
PCS moves. There are two on going tasks for this Lean Six Sigma project which,
according to Army Comptroller personnel, will not be completed until March 2014.
Until all identified corrective actions are taken, DoD remains vulnerable to future
MILPERS ADA violations.




                                             9
Reducing Vulnerability to Future ADA Violations
Requires Follow-up and Documentation of
Corrective Actions
DoD had not established sufficient controls to ensure that the corrective actions identified
in ADA violation reports were implemented, sustained, and documented. DoD FMR,
                                      volume 14, chapter 1, requires that each DoD
      None of the evaluation          Component annually conduct an evaluation of its
    reports identified the status     overall administrative funds control processes. The
      of corrective actions in        evaluation must identify lessons learned for the
     previous MILPERS ADA             investigation of ADA violations and address actions
         violation reports.           to implement appropriate corrective actions to
preclude the reoccurrence of ADA violations. Each of the Military Departments prepared
the reports for FY 2012. Although the Military Departments reported on the corrective
actions taken in regards to new ADA violations, none of the evaluation reports identified
the status of corrective actions in previous MILPERS ADA violation reports. The DoD
FMR did not require them to report in subsequent reports on the status of the
unimplemented corrective actions as a part of the evaluation. In addition, the Military
Departments’ Comptroller personnel did not maintain or track records to prove that they
had taken corrective actions in response to MILPERS ADA violation reports. None of
the Military Departments had a centralized location for information related to prior ADA
investigations and there were often numerous points of contact for a single case. One
manager who worked with ADA investigations told us that she had never been asked to
follow up on the status of a completed investigation. By comparison, she stated that
recommendations from audit reports were centrally monitored and tracked.

DoD FMR, volume 14, chapter 1, also requires that each DoD Component annually
report on its annual review that shows management’s assessment of the adequacy of
control procedures established in each of its CMAs to prevent ADA violations and justify
the continued use of the CMA as a fund controls approach. Only the Air Force prepared
these annual reports. (See Finding B for more details.)

DoD should strengthen the reporting requirements in DoD FMR, volume 14, chapter 1,
and require the Military Departments to monitor the status of unimplemented corrective
actions and report on the status of unimplemented corrective actions in the annual report
evaluating funds control processes until completion to ensure that they properly
implemented and sustained all corrective actions taken to correct ADA violations. In
addition, the Military Departments should establish procedures to maintain records
documenting corrective actions taken for each ADA violation. Consistent with National
Archives and Records Administration records retention guidance, records should be
maintained for at least 6 years and 3 months after either the date of the ADA violation
report to the President, or the date of the last implemented corrective action for an ADA
violation, whichever is the later date.




                                            10
Completing Remaining Corrective Actions Should Take
Priority Over Seeking Congressional Action
DoD officials have given much attention to managing MILPERS accounts. In addition to
the evidence provided to support corrective actions taken on the nine MILPERS ADA
violations, Military Department personnel informed us of other actions that had been
taken or were planned to better manage the MILPERS accounts. For example, the
Military Departments are developing integrated personnel and pay systems, which will be
key to tracking and reporting MILPERS expenditures in a more timely manner and to
achieving better control over the MILPERS accounts after they are implemented. 3

The last MILPERS ADA violation reported by the Army and Navy involved their
FY 2008 MILPERS accounts, and the last MILPERS ADA violation reported by the Air
Force involved the FY 2009 Air National Guard account. However, as a result of the
inconsistent oversight of the implementation and sustainment of the corrective actions
identified in previous MILPERS ADA violations, DoD remained vulnerable to future
ADA violations. Completion of the remaining corrective actions is needed before
seeking additional flexibility in managing the MILPERS accounts.

Management Comments on the Finding and
Our Response
Department of the Army Comments
The Deputy Assistant Secretary of the Army (Financial Operations) provided comments
on the finding discussion. He stated that the Army had only one outstanding corrective
action associated with PCS moves. He referenced a PCS Lean Six Sigma project that
will resolve three material weaknesses for the Army that are common across DoD. In
addition, the Deputy Assistant Secretary provided additional comments regarding the
corrective actions for Army Cases 05-03 and 10-02, for which we reported that we did
not receive adequate supporting documentation. For Army Case 05-03, he stated that the
Army National Guard did not provide additional training because of a change to the
process after FY 2007 in the calculations of the Military Retirement Trust Fund
contributions. Consequently, there was no ADA risk in this area because payments are
made at the start of each fiscal year based on the budgeted amount. For Army Case
10-02, he stated that the Funds Control Module was no longer a material part of
managing the MILPERS, Army appropriation.

The Deputy Assistant Secretary also stated that the Army strongly believes that
automation is the key to improving controls in a meaningful way. He stated that annually
assessing internal controls is an important management function that provides continued



3
 The Army, Navy, and Air Force are developing Enterprise Resource Planning systems to replace the
Defense Integrated Military Human Resources System that was initiated in 1998 and discontinued in 2010.
The replacement Enterprise Resource Planning systems are not expected to be fully deployed until 2017.


                                                  11
benefit; however, the challenges that MILPERS appropriation managers face
fundamentally revolve around system shortcomings rather than people or process
challenges.

Our Response
In our review of the ADA violation reports for the nine MILPERS violations, we
considered each corrective action listed by the Investigating Officers as a separate
corrective action. The ADA violation report for Army Case 10-02 listed two separate
corrective actions related to the PCS Lean Six Sigma project and, as a result, we treated
each corrective action separately. We also contacted and met with Army personnel on
several occasions to determine the status of corrective actions for the ADA violations, but
they did not provide the supporting documentation that we requested related to use of the
Funds Control Module.

For Army Case 05-03, the corrective action stated that comprehensive training was
provided to the three individuals responsible for calculating the Military Retirement Trust
Fund contributions, but we did not receive supporting documents to substantiate that the
training had been conducted after FY 2007. During the audit, the Army did not provide
us any information stating that the change in process as described in the Army comments
eliminated the need for this training. We agree that the change in business process would
minimize the risk of ADA violations and reduce the need for comprehensive
training. However, the Army did not provide supportable evidence of the process change
or substantiate that any training had been conducted after FY 2007. The challenge of
receiving the requested corrective action information for these two ADA violations
supports the need for the Military Departments to establish procedures to maintain
records documenting the corrective actions for each ADA violation
(Recommendation A.1). The circumstances that resulted in changes in operations
affecting MILPERS funds and internal control processes should be identified and
assessed in annual evaluations.

We agree that the Army’s continued progress toward automation of its financial
processes is key to improving controls in a meaningful way and to the Army’s
advancement toward full auditability of its financial statements. We acknowledge in the
finding that the Military Departments are developing integrated personnel and pay
systems, which will be key to tracking and reporting MILPERS expenditures in a more
timely manner and to achieving better control over the MILPERS accounts after they are
implemented. We acknowledge that there are other system challenges, that once
overcome, will improve management of the MILPERS appropriations.

Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) provided
comments on the finding discussion. She stated that the Navy remained concerned about
the risk of future ADA violations in the MILPERS accounts. The Assistant Secretary
stated that the Navy will implement the best estimating techniques and strong internal
controls, but these actions may not stop an ADA violation in a MILPERS account
because of the unique nature of the account. She stated that the MILPERS accounts do


                                            12
not have the same execution flexibility as other accounts, which contributes to the high
risk of ADA violations. Further, she stated that the report should focus on these concerns
and provide viable alternatives to Congress to reduce the risk of future MILPERS ADA
violations.

Our Response
We recognize that the MILPERS appropriations do not have the same operational
flexibility as most DoD appropriations. However, reducing the risk of future ADA
violations in the MILPERS appropriations depends principally on implementing strong
automated procedures and controls over establishing financial obligations as well as the
prompt and accurate recording and reporting of execution information. More consistent
oversight of the implementation and sustainment of the corrective actions identified in
previous MILPERS ADA violations would reduce DoD vulnerability to future ADA
violations. Senior DoD officials are also responsible for conducting systematic and
meaningful evaluations of their administrative funds control processes. We considered
the DoD proposal that requested the authority to extend 2 percent of each MILPERS
appropriation for funds obligation for an additional year, but we did not attempt to
identify possible alternatives to this proposal that Congress could consider to further
reduce the risk of future MILPERS ADA violations.

Recommendations, Management Comments, and
Our Response
A.1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, revise DoD Regulation 7000.14-R, “DoD Financial
Management Regulation” (DoD FMR), volume 14, chapter 1, January 2009, to
require the Military Departments to monitor the status of unimplemented corrective
actions and report on the status of unimplemented corrective actions in the annual
report evaluating funds control processes to ensure that they properly implemented
and sustained all corrective actions taken to correct ADA violations.

USD(C)/CFO Comments
The Deputy Chief Financial Officer, responding on behalf of the USD(C)/CFO, agreed
and stated that DoD FMR, volume 14, chapter 1, would be revised in the next scheduled
update to include a requirement for the Military Departments to monitor the status of
unimplemented corrective actions and report the status as a part of the annual review of
funds and internal control processes.

Our Response
Comments from the Deputy Chief Financial Officer were responsive, and the actions met
the intent of the recommendation.

A.2. We recommend that the Assistant Secretaries of the Army, Navy, and Air
Force (Financial Management and Comptroller) establish procedures to maintain
records documenting corrective actions taken for each ADA violation for at least



                                           13
6 years and 3 months subsequent to either the date of the ADA report to the
President or the date of the last implemented corrective action for an ADA violation,
whichever is the later date.

Department of the Army Comments
The Deputy Assistant Secretary of the Army (Financial Operations), responding on
behalf of the Assistant Secretary of the Army (Financial Management and Comptroller),
agreed and stated that, effective immediately, the Army would begin tracking and
sustaining corrective actions for all open formal ADA investigations that will close in
FY 2013 and beyond. He also stated that fund holders at activities where the ADA
violations occurred will be responsible for providing recurring status updates that will be
reported to the office of the USD(C)/CFO.

Our Response
Comments from the Deputy Assistant Secretary of the Army (Financial Operations) were
partially responsive. The comments did not address whether the Army would establish
procedures to maintain records documenting corrective actions taken for each ADA
violation. We request that the Army provide comments on the final report by
December 31, 2012.

Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) agreed
and stated that the Navy would retain records documenting actions taken for each ADA
violation in accordance with National Archives and Records Administration records
retention guidance.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) were responsive, and the actions met the intent of the recommendation.

Department of the Air Force Comments
The Deputy Assistant Secretary of the Air Force Financial Operations (Financial
Management), responding on behalf of the Assistant Secretary of the Air Force (Financial
Management and Comptroller), agreed and stated that her office would track corrective
actions for reportable ADA violations and work with the office of the USD(C)/CFO and
the other Services to establish procedures and a standard format to report on corrective
actions.

Our Response
The comments from the Deputy Assistant Secretary of the Air Force Financial Operations
(Financial Management) were partially responsive. The comments did not address
whether the Air Force would establish procedures to maintain records documenting
corrective actions taken for each ADA violation. We request that the Air Force provide
comments on the final report by December 31, 2012.



                                            14
Finding B. Army and Navy Did Not Complete
Annual Reviews of the Military Personnel
Accounts
The Army and Navy Comptroller personnel did not annually assess the adequacy of
control procedures established for managing their CMAs to prevent ADA violations and
justify the continued use of the CMAs. 4 Army Comptroller personnel did not perform
these reviews for their MILPERS accounts and other CMAs because they failed to
recognize the requirement that had existed since at least 1995. In June 2012, Army
personnel identified the Army’s CMAs, including their MILPERS accounts, and initiated
action to complete a review of control procedures. Navy Comptroller personnel did not
complete the annual review because they did not believe that the MILPERS accounts
were covered by the DoD FMR requirement. As a result, the Army and Navy had limited
assurance that controls would prevent future MILPERS ADA violations. In addition,
they have not justified the continued operation of all MILPERS accounts as CMAs.

Required Reviews of Centrally Managed Allotments
DoD FMR, volume 14, chapter 1, states that the head of an operating agency may
establish CMAs, but these allotments must be established only when it is impractical to
administer decentralized allotments under normal operating procedures. Before approval,
a specific determination must be made that adequate controls have been established to
avoid over-obligating or over expending the allotment. The DoD FMR requires an
annual review that both assesses the adequacy of control procedures established in the
CMA to prevent ADA violations as well as to justifying the continued use of the CMA as
a funds control approach. The DoD FMR also requires that the Military Department’s
internal audit organization evaluate the adequacy of control procedures established to
prevent ADA violations and recommend whether or not continued use of the CMAs is
justified.

The Military Departments managed the MILPERS accounts for Active component
MILPERS costs and other centrally funded types of expenses as CMAs. The Military
Departments managed MILPERS accounts related to Reserve and National Guard
operations more on a decentralized basis. Table 5 shows the CMA status for each of the
10 MILPERS appropriations, according to the Military Departments.




4
 In addition to the MILPERS accounts, the Air Force centrally managed its foreign currency accounts. The
Army also centrally managed foreign currency accounts as well as second destination transportation
charges.

                                                  15
                Table 5. CMA Status of the Military Service Components
                Military Service         Component              CMA
            Air Force                      Active                Yes
            Air Force                      Reserve               No
            Air Force                Air National Guard          No
            Army                           Active                Yes
            Army                           Reserve               No
            Army                       National Guard          Partial1
            Navy                           Active                No2
            Navy                           Reserve               No
            Marine Corps                   Active                No2
            Marine Corps                   Reserve               No
        1
         The Army National Guard has both CMA and decentralized funding. Most
        National Guard funds are part of the CMA but a portion is distributed to the United
        States Property and Fiscal Officer (USPFO). Each State’s USPFO is the official
        with pecuniary liability for all Federal property and funding in the possession of the
        National Guard with which the USPFO is serving.
        2
          Navy Comptroller personnel did not believe that their MILPERS accounts
        (including the Marine Corps) were CMAs.

Army and Navy Did Not Comply with the Annual CMA
Review Requirement
Prior to FY 2012, the Army had not completed annual CMA reviews. The ADA
violation report for Army Case 10-02 identified weaknesses in managing the MILPERS
account as a CMA. Specifically, the report stated that the Office of the Deputy Chief of
Staff, G-1, did not take steps to properly establish the MILPERS account as a CMA as
required by regulation and did not comply with the annual requirement to prescribe and
document an adequate system of financial and nonfinancial controls. In response to the
findings in the ADA violation report for Army Case 10-02, the Assistant Secretary of the
Army (Financial Management and Comptroller) issued a memorandum dated January 18,
2012, requiring that the Army comply with the annual DoD FMR requirement. As of
October 5, 2012, Army personnel had identified all of the Army’s CMAs, including the
MILPERS accounts, and were preparing the CMA packages to be provided to U.S. Army
Audit Agency for evaluation, as required by the DoD FMR.

Navy personnel did not complete the annual reviews for the Navy and Marine Corps
MILPERS accounts, stating that the DoD FMR requirement specifically required a
review of a CMA, not a “centrally managed account,” as the Navy has defined its
MILPERS account. DoD FMR, volume 14, chapter 1, states that allocations,
suballocations, or portions of an allocation, that are not required to be divided further
may be treated and recorded as allotments. Office of the USD(C)/CFO personnel stated
that the intent of the DoD FMR requirement was for all the Military Departments to
complete the annual reviews for all CMAs including MILPERS accounts. Although we

                                                   16
do not agree with the Navy interpretation of DoD FMR, volume 14, chapter 1, the DoD
FMR needs clarification to better explain the applicability of the guidance to MILPERS
accounts.

The Air Force adequately completed the annual CMA review requirement for the periods
we reviewed, FYs 2010 through 2012. In its review for FY 2012, the Air Force
concluded that the justification package for the MILPERS account demonstrated clearly
that the fund control and management procedures established to administer its CMA
remained intact and were adequate to preclude overobligation and over expenditure of the
CMA. Air Force Audit Agency agreed with this assessment.

The USD(C)/CFO should revise the DoD FMR to clarify the definition of a CMA to
ensure that each Military Department completes the annual report for all CMAs,
including MILPERS accounts. Navy personnel should identify all of the Navy’s CMAs
and commence performing and documenting annual reviews of its CMAs, including the
Navy and Marine Corps MILPERS accounts. The reviews should assess the adequacy of
control procedures established in the CMAs to prevent ADA violations and justify the
continued use of the accounts as a funds control procedure.

DoD Financial Management Regulation Did Not Require
Reporting to USD(C)/CFO
The DoD FMR requires that the head of each operating agency complete the annual
CMA report, but does not require providing these reports to the office of the
USD(C)/CFO. If a Military Department
does not comply with the requirement to        The USD(C)/CFO needs assurance that
complete this report, it may have                 all the Military Departments have
increased risk of future ADA violations as     established required controls within the
a result of weak controls within the CMA.              MILPERS account CMAs.
The USD(C)/CFO needs assurance that
all the Military Departments have established required controls within the MILPERS
account CMAs and that the justification for continuing the CMA is reasonable.

The USD(C)/CFO should establish procedures to require that Military Department
Comptroller personnel provide his office with written assurance of the completion of the
annual review of CMAs, including MILPERS accounts. The report should note any
deficiencies or material issues revealed by the review and the results of its evaluation by
the Military Department’s internal audit organization.




                                            17
Management Comments on the Finding and
Our Response
Department of the Army Comments
The Deputy Assistant Secretary of the Army (Financial Operations) provided comments
on the finding discussion. The Deputy Assistant provided information about Army
assessments of internal controls for the Army MILPERS appropriations. He stated that
appropriation managers had been monitoring internal controls in accordance with
Section 3512, Title 31, United States Code, “Executive Agency Accounting and Other
Financial Management Reports and Plans;” OMB Circular No. A-123, “Management's
Responsibility for Internal Control;” and Army Regulation 11-2, “Managers’ Internal
Control Program.” The Army’s annual assessment of the effectiveness of internal
controls for both financial and non-financial operations was done as a part of the Annual
Statement of Assurance process.

Our Response
We recognize that the annual assessment of the effectiveness of internal controls provides
meaningful information about overall operational and financial controls. However, the
Annual Statement of Assurance does not provide the more detailed and specific analysis
of controls that would be achieved in the annual review of centrally managed allotments.

Recommendations, Management Comments,
and Our Response
B.1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, revise DoD Regulation 7000.14-R, “DoD Financial
Management Regulation” (DoD FMR), volume 14, chapter 1, to:

       a. clarify the definition of a centrally managed allotment as it relates to
Military Personnel accounts; and

       b. establish procedures to require that each Assistant Secretary for Financial
Management and Comptroller provides his office with written assurance of
completion of the annual review of centrally managed allotments, including the
Military Personnel appropriations.

USD(C)/CFO Comments
The Deputy Chief Financial Officer, responding on behalf of the USD(C)/CFO, agreed
with the recommendation and stated that DoD FMR, volume 14, chapter 1, would be
revised in the next scheduled update to clarify the definition of a centrally managed
allotment, which includes allotments and allocations, and require the Military
Departments to report to the Assistant Secretary of the Military Departments (Financial
Management and Comptroller) upon completion of the review.

                                           18
Our Response
Comments from the Deputy Chief Financial Officer were partially responsive. In
response to Recommendation B.1.b, he stated that each Assistant Secretary of a Military
Department (Financial Management and Comptroller) should be notified when the annual
reviews were completed. We recommended that the USD(C)/CFO be notified so that his
office would be aware that each Military Department completed the annual review of
centrally managed allotments. We request that the USD(C)/CFO provide comments on
the final report describing plans for updating the DoD FMR that would require that each
Assistant Secretary for Financial Management and Comptroller provide the office of the
USD(C)/CFO with written assurance of completion of the annual review of centrally
managed allotments.

B.2. We recommend that the Assistant Secretary of the Navy (Financial
Management and Comptroller) identify all of the Navy’s centrally managed
allotments and commence performing and documenting annual reviews of its
centrally managed allotments, including the Navy and Marine Corps Military
Personnel accounts.

Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) agreed
and stated that the Navy would comply with the direction of the office of the
USD(C)/CFO upon implementation of Recommendation B.1.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) were responsive. In response to Recommendation B.1, the Deputy Chief
Financial Officer stated that the definition of a centrally managed account will be
clarified and that the Military Departments will be required to report the results upon
completion of their annual review of centrally managed accounts, which includes
allotments and allocations. Regardless of when the DoD FMR is changed, the Navy
should begin its review of internal controls and substantiate the continued operation of
each of its centrally managed allotments, including the MILPERS appropriations. The
Navy actions met the intent of the recommendations.




                                            19
Appendix A. Scope and Methodology
We conducted this performance audit from March 2012 through November 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We obtained the ADA violation reports for the nine MILPERS ADA violations that the
Military Departments reported in FYs 2003 through 2012. We reviewed the documented
causes of each violation for completed investigations and determined whether DoD
implemented and sustained the required corrective actions that resulted from the causes
of the violations. We determined whether the annual reports of CMA reviews and
evaluations of administrative funds controls processes were completed in accordance
with DoD FMR, volume 14, chapter 1. We met with the House Committee on
Appropriations, Subcommittee on Defense and the Senate Committee on Appropriations,
Subcommittee on Defense to discuss our audit approach and provide a status update. We
also held meetings with personnel from the USD(C)/CFO and the offices of the Assistant
Secretaries of the Army, Navy, and Air Force to obtain further details about the
corrective actions that had been taken in response to the ADA violation reports.

Use of Computer-Processed Data
We did not rely on computer-processed data as a basis for developing our findings,
conclusions, or recommendations.

Use of Technical Assistance
We did not use technical assistance in conducting this audit.




                                            20
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DOD IG), U.S. Army Audit Agency, Naval Audit Agency,
and Air Force Audit Agency have issued 16 reports discussing MILPERS accounts.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DOD IG reports can be accessed at http://www.dodig.mil/audit/reports.

Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/.

Naval Audit Service reports are not available over the Internet.

Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
Common Access Cards.


GAO
GAO Report No. GAO-12-406, “The Army Faces Significant Challenges in Achieving
Audit Readiness for Its Military Pay,” March 2012

GAO Report No. GAO-11-950T, “Weaknesses in Controls Over the Use of Public Funds
and Related Improper Payments,” September 22, 2011

GAO Memo No. B-318724, “Department of the Army-The Fiscal Year 2008 Military
Personnel, Army Appropriation and the Antideficiency Act,” June 22, 2010

GAO Report No. GAO-08-1063, “Improvements are Needed in Antideficiency Act
Controls and Investigations,” September 2008

Army
U.S. Army Audit Agency Report No. A-2012-0079-FMF, “Controls Over the
Unemployment Compensation Program for Ex-Service members,” March 16, 2012

U.S. Army Audit Agency Report No. A-2010-0143-FFM, “Follow-up Audit of FY 05
Subsistence Charges,” July 29, 2010

U.S. Army Audit Agency Report No. A-2010-0071-FFP, “Follow-up Audit of Controls
Over Leave, Overtime, and Compensatory Time by Army Commands in Hawaii,”
May 6, 2010

U.S. Army Audit Agency Report No. A-2009-0171-FFF, “Processes to Pay and Recoup
Enlistment Bonuses for the U.S. Army Reserves,” September 30, 2009


                                            21
U.S. Army Audit Agency Report No. A-2009-0118-FFF, “Processes to Pay and Recoup
Enlistment Bonuses for the Active Army, ODCS, G-1,” May 19, 2009

U.S. Army Audit Agency Report No. A-2008-0108-FFM, “Miscellaneous Credits for
Reserve Component Pay,” April 29, 2008

Navy
Naval Audit Service Report No. 2012-0024, “Business Process Reengineering Efforts for
Selected Department of the Navy Business System Modernizations; Personalized
Recruiting for Immediate and Delayed Enlistment Modernization,” March 6, 2012

Air Force
U.S. Air Force Audit Agency Report No. F2012-0002-FD4000, “Military Personnel
Appropriation Man-Days,” November 22, 2011

U.S. Air Force Audit Agency Report No. F2011-0012-FD4000, “Combat Pay and Tax
Exclusion,” August 12, 2011

U.S. Air Force Audit Agency Report No. F2010-0011-FB1000, “Selected Aspects of the
Military Personnel Appropriation Centrally Managed Allotment,” September 7, 2010

U.S. Air Force Audit Agency Report No. F2010-0010-FD4000, “Basic Allowance For
Subsistence/Essential Station Messing Entitlements,” September 1, 2010

U.S. Air Force Audit Agency Report No. F2010-0007-FD4000, “Military Leave
Program,” July 1, 2010




                                         22
         Appendix C. Antideficiency Act Summaries
                                         Navy Case 03-01
Violation    This violation occurred because the Marine Corps overdisbursed the MILPERS Marine
             Corps appropriation during FY 2002. The Marine Corps was authorized to mobilize up to
             7,500 reservists after the terrorist attacks of September 11, 2001, but because of complexities
             associated with the increased workload and no accurate process for tracing the costs, the
             Marine Corps overdisbursed its MILPERS appropriation. The violation totaled $21,800,000
             and resulted in a violation of Title 31, United States Code, Section 1341(a).
Causes       • The September 11 event caused strain on the appropriation due to a marked increase in
                 workload and complexity when the Marine Corps was ordered to mobilize a large
                 number of Marine Reservists.
             • The Deputy Commandant for Manpower and Reserve Affairs staff and financial staff
                 had difficulty in reaching an agreement on the number of reservists to mobilize, how
                 they were to be used, and the effect on the MILPERS account.
             • The Marine Corps’ established procedures were not followed.
             • The inability to determine what data was reflected in the obligation plans and
                 expenditure data contributed to the problems in reconciling the MILPERS account.
             • A pay grade matrix for the mobilized reserve strength was not provided until
                 August 2002, making it impossible to verify the accuracy of the Marine Corps Total
                 Force System data.
Corrective   • The Marine Corps established a schedule for reconciling the Reserve Order Writing
Actions          System.
Taken and    • Deputy Commandant for Manpower and Reserve Affairs issues daily reports on the
Sustained        number of Marines mobilized and on stop-loss.
             • The Marine Corps combined active and mobilized reservists in manpower end-strength
                 and financial phasing plans.
             • Quarterly funds status briefings are prepared and presented at the three star level with
                 Deputy Commandant for Programs and Resources and Deputy Commandant for
                 Manpower and Reserve Affairs. The Assistant Deputy Commandant for Programs and
                 Resources is briefed weekly or as required.
             • Assigned two Presidential Management Fellows and one Navy Financial Management
                 Intern to the Manpower Personnel Branch.
             • The Marine Corps assigned a junior officer (major) with a financial management
                 background and a strong field disbursing experience to develop and implement improved
                 automated system reporting procedures.
             • The Marine Corps established a budget execution analyst position.
             • The Marine Corps developed automated reports from the Marine Corps Total Force
                 System.
             • Defense Finance and Accounting Service Kansas City developed an automated interface
                 between the Marine Corps Total Force System and Standard Accounting, Budgeting, and
                 Reporting System.




                                                   23
                       Navy Case 03-01 (continued)
Evidence of     None
Corrective
Action was
Inadequate
Corrective      None
Actions Still
In Process




                                   24
                                            Army Case 04-07
Violation      This violation occurred in FYs 1995 through 1997 in the National Guard, Army
               appropriations and totaled $521,790.86. The U.S. Virgin Islands Army National Guard
               performed numerous missions during hurricane support and relief efforts, but did not bill
               the Territory of the Virgin Islands to obtain reimbursement. The Territory fully
               reimbursed these expenditures in FY 2006; however, the reimbursement was not credited
               to the affected appropriations because the appropriations had canceled. This situation
               resulted in a violation of Title 31, United States Code, Section 1341(a).
Cause          The National Guard Bureau concluded there was a lack of proper documentation and
               believed the U.S. Virgin Islands Army National Guard should be held accountable for the
               misuse of Federal funds.
Corrective     • The Territory of the Virgin Islands provided the reimbursement.
Actions        • The National Guard Bureau is conducting normal inspections as scheduled by the
Taken and          appropriate directorates.
Sustained      • The National Guard Bureau made changes to the Safety Aviation Program, and a new
                   Safety Aviation Officer has been assigned to ensure all flights and activities are
                   conducted according to Army Regulation and Standard Operating Procedures.
Evidence       • Procedures for the loan of Federal materiel are being completed in accordance with
of                 the Army Regulation 700-131. Army National Guard Comptroller personnel did not
Corrective         provide information to show the corrective action occurred.*
Action was     • Proper use of the armories is being monitored. Although the Army National Guard
Inadequate         Comptroller personnel provided information showing personnel were trained, they
                   could not show that armories were monitored.*
Corrective     None
Actions
Still In
Process
         *
           Our assessment of the corrective action is indicated by italics.




                                                      25
                                        Army Case 04-12
Violation    This violation occurred at the Office of the Chief, Army Reserve, when a memorandum
             was published authorizing $5,000 for 3-year reenlistment bonuses in FY 2004. These
             bonuses were in excess of the statutory limit of $2,500 contained in Title 37, United
             States Code, Section 308(b). Twelve soldiers were approved for such bonuses totaling
             $60,000, which was $30,000 more than permitted by statute. This situation resulted in a
             violation of Title 31, United States Code, Section 1341(a)(1)(A).
Cause        The Office of the Chief, Army Reserve, Director, Program Analysis and Evaluation
             (PA&E), published a memorandum on December 5, 2003, authorizing $5,000 bonus
             payments for 3-year reenlistments, at the direction of Chief of Army Reserve
             (Chief). The Chief was aware that Congress authorized the Active Component a 3-year
             reenlistment bonus for $5,000 and believed it also applied to the Reserve, but never
             requested a written legal opinion to support his interpretation.
Corrective   • Twelve soldiers who were approved for the bonus had their reenlistment contracts
Actions         revoked and no funds were disbursed exceeding the $2,500 limit. To prevent a
Taken and       reoccurrence of the violation, new procedures have been implemented to obtain legal
Sustained       opinions prior to issuing future bonus policy memorandums.
Evidence     None
of
Corrective
Action was
Inadequate
Corrective   None
Actions
Still In
Process




                                                 26
                                         Army Case 05-03
Violation    The violation occurred when personnel associated with the Army National Guard Bureau
             underestimated the required contributions to the Military Retirement Trust Fund. This
             violation, totaling $25,000,743, occurred in FY 2001. This situation resulted in a
             violation of Title 31, United States Code, Section 1341(a)(1)(A).
Cause        The Army National Guard did not properly calculate Military Retirement Trust Fund
             contributions because it used monthly contributions rates from FY 2000 rather than from
             FY 2001.
Corrective   • Corrected contributions to the retirement trust fund by discontinuing the previous
Actions          practice.
Taken and    • Established formal monthly retired pay accrual standard operating procedures.
Sustained
Evidence        • Provided comprehensive training for calculating the contributions. Army National
of                  Guard Comptroller personnel provided information that the training was required as
Corrective          of 2007. However, Army National Guard Comptroller personnel could not support
Action was          that subsequent training occurred.*
Inadequate
Corrective None
Actions
Still In
Process
         *
           Our assessment of the corrective action is indicated by italics.




                                                  27
                                        Army Case 06-09
Violation    The violation occurred because Army Reserve Command personnel failed to promptly
             record and pay valid FY 2005 Reserve Personnel, Army obligations, totaling $59,046,000.
             This overobligation resulted in a violation of Title 31, United States Code, Section
             1341(a)(1)(A).
Causes       • There was an increase in Reserve Soldiers drilling, and Office of the Deputy Chief of
                 Staff for Personnel expanded the window of reenlistment eligibility. Consequently,
                 Army Reserve disbursements for incentives increased from $51.9 million in FY 2004
                 to $138.4 million in FY 2005, and Office of the Deputy Chief of Staff for Programs
                 (G-8) became aware of the need to obligate funds sufficient to cover reenlistment
                 bonuses.
             • One of the staff members was engaged in supporting an Army Regulation
                 investigation and was unable to devote full attention to their primary job.
             • Another staff member, noticing the increasing costs, transferred as much available
                 Reserve Personnel, Army funding into the areas needed because these payments were
                 going to be needed earlier than the end of year for the Defense Health Care Accrual.
             • Another individual was instructed to ensure the Defense Health Care Accrual FY 2005
                 obligations were raised and recorded at the appropriate levels. As a result, a voucher
                 was created making it appear as if the Defense Health Care Accrual was obligated and
                 paid in full even though it was not.
Corrective   • The Command developed a budget execution analysis modeling system.
Actions      • Command started processing initial and reenlistment bonus payments to soldiers
Taken and        through an automated process as of August 1, 2006.
Sustained    • In FY 2006, a new law (United States Code, Section 1116) required that Defense
                 Health Care Accrual payments be made at the beginning of the current fiscal year.
             • The Comptroller; the Plans, Analysis, and Evaluation Chief; and the U.S. Army
                 Reserve Command G-8 now report to the Office Chief Army Reserve, Director of
                 Resource Management.
Evidence     None
of
Corrective
Action was
Inadequate
Corrective   None
Actions
Still In
Process




                                                 28
                                      Air Force Case 09-03
Violation    The violation occurred because the Air Force overobligated its FY 2005 MILPERS, Air
             Force appropriation when a significant number of PCS moves were charged to FY 2006,
             while the PCS moves were commenced and completed in FY 2005. This resulted in a
             violation of Title 31, United States Code, Section 1341(a)(1)(A) of $87,535,000.
Cause        There was inadequate manpower and experience within the finance community to manage
             the PCS budget.
Corrective   • To correct the identified overobligations, the Air Force has made the required funding
Actions          corrections to properly record obligations.
Taken and    • The Air Force has implemented several major policy changes that clarify and tighten
Sustained        guidance regarding the recording of PCS obligations. In addition, in the final month
                 of each fiscal year, Air Force Personnel Center now centralizes PCS order
                 authentication and approval, effectively exerting real-time control of orders issuance.
             • The Office of the Assistant Secretary for Financial Management, Director of Budget,
                 formally established and now chairs the Personnel Budget Review Committee. The
                 Personnel Budget Review Committee provides senior-level oversight that had been
                 absent when the overobligations occurred.
             • The Air Force has taken action to improve manning. The Air Force Comptroller and
                 the Director of Budget have provided clear direction regarding focus on staffing and
                 management of the MILPERS Section.
             • The Office of the Assistant Secretary for Financial Management, Director of Budget,
                 has developed a robust training syllabus for new analysts to the division. The syllabus
                 includes specific training required to manage the unique aspects of the MILPERS
                 account.
Evidence     None
of
Corrective
Action was
Inadequate
Corrective   None
Actions
Still In
Process




                                                  29
                                       Army Case 10-02
Violation    This violation occurred when the Army’s payroll, PCS claims, bonus payments, and
             subsistence adjustments paid in FY 2009 for its MILPERS, Army appropriation exceeded
             the amount of funds available by $155,000,000. This resulted in a violation of Title 31,
             United States Code, Section 1341(a)(1)(A).
Causes       • Defense Finance and Accounting Service accounting reports in October 2008 revealed
                 a significant increase in costs associated with PCS claims, pay-related adjustments,
                 and bonus payments; however, funds in the appropriation account were already fully
                 obligated.
             • The Department of Labor presented a $55.9 million quarterly invoice for
                 unemployment compensation benefits paid to former Federal employees and former
                 Service members. The Army delayed payment because there were not sufficient
                 funds available.
             • The cost model did not take into consideration pay-related adjustments and bonus
                 entitlements that were authorized and paid in different years.
             • There was weak management of the MILPERS, Army appropriation as a CMA.
             • The subsequent increase in fuel prices and reimbursement at full replacement value
                 for damaged household goods claims could not be predicted when PCS orders were
                 issued.
Corrective   • Congress approved the Army’s request to transfer $200 million into the MILPERS
Actions          account.
Taken and    • The Army automated the Cost of War submission.
Sustained    • The cost model was developed to forecast funding requirements based on manpower.
             • The Army developed the Monthly MILPERS Review.
             • The Army established a cell at the Army Human Resources Command to validate
                 unemployment compensation claims provided by and reimbursed to the Department of
                 Labor.
             • The Army began issuing MILPERS funding letters that are co-signed by the Army
                 Budget Office and Office of the Deputy Chief of Staff for Personnel.
             • The Lean Six Sigma project for Recruiting and Retention focus was on incentive
                 bonuses.
             • Army completed the initial testing of the Other Contingency Operations Temporary
                 Change of Station budget module and established a Council of Colonels Project Team
                 and a General Officer Steering Committee Governance structure for PCS system
                 development.




                                                30
                                   Army Case 10-02 (continued)
Evidence      •   Subsistence-in-Kind:
of
Corrective        o The Army began implementation of the Army Food Management Information
Action was          System to enable it to record MILPERS obligations at the point of initial
Inadequate          requisition.
                  o The Army automated the civilian cost transfer estimate for subsistence-in-kind
                    using the Oracle model. The Army did not provide information on how they
                    automated the civilian cost transfer estimate.*
                  o The Army expanded its ability to accurately record rations used in theater on its
                    accounting reports.

              •     In FY 2011, the Army began utilization of the Funds Control Module. The Army did
                    not provide information on this corrective action.*
Corrective • The Army established a Lean Six Sigma project for PCS to gather information on a
Actions             process and system to record PCS obligations at the individual level prior to
Still in            disbursement in order to comply with the DoD policy to obligate PCS orders at the
Process             time that they are issued. The Lean Six Sigma team is developing several Courses of
                    Action for presentation to Army staff leadership.
                • The Army identified the inability to accurately report obligations for the PCS program
                    as a material weakness in its Annual Statement of Assurance. PCS subject matter
                    experts and pilot sites personnel will have completed software development by the end
                    of FY 2012. The Army will also require U.S. Army Audit Agency to validate the
                    audit results for the pilot sites and will begin training and development for additional
                    sites.
         *
           Our assessment of the corrective action is indicated by italics.




                                                    31
                                        Navy Case 10-03
Violation    The violation occurred because the Bureau of Navy Personnel (BUPERS) overobligated
             the FY 2008 MILPERS, Navy appropriation. The BUPERS Comptroller Office was
             unable to properly exercise internal control and management oversight of the MILPERS,
             Navy account, thereby preventing it from accurately assessing the overobligations and
             requirement for additional funding for FY 2008 MILPERS, Navy account. Although
             some funding requests and mitigation strategies were executed during the fiscal year, they
             were insufficient to liquidate all obligations. This resulted in a violation of Title 31,
             United States Code, Section 1341(a)(1)(A).
Causes       Internal control and management oversight deficiencies prevented BUPERS financial
             managers from making a more accurate assessment of the amount of additional funding
             needed. The situation was made worse by significant information technology issues
             (numerous and complex interactions between systems), human resource issues
             (inadequate training and high turnover), and unique account characteristics (lag time for
             proper recording of obligations). BUPERS also did not have adequate estimates
             regarding the number of service members it needed to pay.
Corrective   • Three transactions were verified by BUPERS and Defense Finance and Accounting
Actions          Service Cleveland as accounting errors and corrected. An Above Threshold
Taken and        reprogramming action to correct the violation was processed in October 2010.
Sustained    • The Head, Financial Operations, Policy Branch, created the Critical Balance report,
                 which provides a daily status of expenditures of the appropriation.
             • BUPERS partnered with Defense Finance and Accounting Service Cleveland for
                 ongoing working group sessions to develop agreed-upon procedures internally.
Evidence     None
of
Corrective
Action was
Inadequate
Corrective   • When a future system is implemented that meets the requirements outlined for
Actions        Defense Integrated Military Human Resources System, BUPERS management will be
Still In       in a better position to effectively deal with the complexity of the MILPERS, Navy
Process        account.




                                                 32
                                       Air Force Case 10-06
Violation    This violation occurred when the Air National Guard expended $9,729,552 more than was
             appropriated in FY 2009. A review of the funding documents at the Air National Guard
             Military Personnel appropriation led to an inaccurate understanding of the total amount of
             unobligated funds available in the later part of the fiscal year. This resulted in a violation
             of Title 31, United States Code, Section 1341(a)(1)(A).
Causes       • There was a failure in administration of the account.
             • The workday rate was not recalculated in FY 2009.
             • The checkbook was not kept in balance and up-to-date. A checkbook is an internal
                 tool to ensure that funding is properly reflected in the man-day metrics and that the
                 remaining man-days accurately reflect remaining appropriations.
Corrective   • The violation was corrected using available (FY 2010) funds. Specifically, the
Actions          obligations that were otherwise chargeable to the FY 2009 Air National Guard
Taken and        Military Personnel appropriation were charged to the FY 2010 Air National Guard
Sustained        Military Personnel appropriation in accordance with Section 8054 of Public
                 Law 111-118.
             • Air National Guard has ensured that the appropriation manager will perform quarterly
                 adjustments to the man-day factor, based upon the number of projected man days (to
                 include a reserve of funds as a buffer).
Evidence     None
of
Corrective
Action was
Inadequate
Corrective   None
Actions
Still In
Process




                                                   33
Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, Comments




                  Click to add JPEG file




                                   34
Click to add JPEG file




                 35
Department of the Army Comments             Final Report
                                             Reference




                                         Pages 8 and 30




                Click to add JPEG file



                                         Revised, page 15




                                  36
Click to add JPEG file




                 37
Department of the Navy Comments




                Click to add JPEG file




                                  38
                            Final Report
                             Reference




                         Revised, page 6




Click to add JPEG file




                 39
Department of the Air Force Comments




                 Click to add JPEG file




                                  40
